<html>
<title> - [H.A.S.C. No. 114-112] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                                     
 
                         [H.A.S.C. No. 114-112]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                  FISCAL YEAR 2017 BUDGET REQUEST FOR

                     U.S. CYBER COMMAND: PREPARING

                   FOR OPERATIONS IN THE CYBER DOMAIN

                               __________

                              HEARING HELD
                             MARCH 16, 2016

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     
  

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-064                         WASHINGTON : 2017
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Rogers, ADM Michael S., USN, Commander, U.S. Cyber Command.......     3

                                APPENDIX

Prepared Statements:

    Rogers, ADM Michael S........................................    28
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................    49
    Mr. Wilson...................................................    49
    
    
    
    
    
    
 FISCAL YEAR 2017 BUDGET REQUEST FOR U.S. CYBER COMMAND: PREPARING FOR 
                     OPERATIONS IN THE CYBER DOMAIN

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                         Washington, DC, Wednesday, March 16, 2016.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
the Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee to order.
    I am pleased to welcome everyone here today for the hearing 
on the fiscal year 2017 budget request of the United States 
Cyber Command. Since we last met to talk about the work of 
USCYBERCOM, the news has been filled with stories that remind 
us of the critical job facing the Department of Defense [DOD], 
from the intrusion on the Joint Staff networks to the 
compromise of personal information of millions of government 
personnel and their families.
    Cyber is proving to be both a domain of warfare on its own 
as well as a key enabler for all other domains of war. In 
looking through this most recent budget request, we should be 
asking ourselves some important questions.
    Do we have the resources, people, cyber tools and training 
needed to be effective?
    Do we have the necessary policies and authorities to 
conduct cyber operations?
    What areas require additional refinement?
    Are we deterring potential adversaries and contributing to 
our overall national security?
    As we tackle these tough questions, I would like to take 
the opportunity to welcome back as our witness today, Admiral 
Michael Rogers, commander of U.S. Cyber Command.
    One of the major tests that our Admiral Rogers has to 
contend with is how to operate in an environment in our 
interagency, international, and industry partners. I am pleased 
to hear that in a major upcoming exercise entitled Cyber Guard 
2016, personnel from the House administration staff will be 
participating. I am especially looking forward to hearing the 
plans for that exercise and how we might also apply its lessons 
in defending the House of Representatives' networks.
    I would like now to turn to my friend, Ranking Member 
Congressman Jim Langevin from Rhode Island, for any comments he 
would like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman. I want to 
welcome Admiral Rogers back before the subcommittee today. It 
is an honor to have you here, Admiral, and appreciate all you 
are doing to protect our Nation's cyberspace and certainly look 
forward to discussing cybersecurity and operational fiscal year 
2017 budget request for U.S. Cyber Command across the 
Department.
    I have been one of the biggest proponents of cybersecurity 
as a critical warfighting domain during my time in Congress. So 
I am pleased to discuss this vital piece of our national 
security here with you today.
    As we know, cybersecurity and cyber operations are 
paramount in today's world, from defending the DODIN 
[Department of Defense Information Network], to deterring and 
defending against adversaries, to meeting combatant command 
needs. Cyber is a key component of all strategies across every 
aspect of national defense and security.
    As such, the total cybersecurity and cyberspace operations 
budget for the DOD is $6.8 billion for fiscal year 2017 and 
ranges from protecting data to operating in the domain.
    Now, of that investment approximately $505 million is 
requested for Cyber Command. Now, the funds requested for the 
service cyber components to mature the command and increase the 
capacity of cyber mission forces [CMF] make up a substantial 
portion of that request.
    While we have made tremendous progress in this area, 
significant investment over the Future Years Defense Program 
will still be required. And as the CMF matures we must work to 
synchronize investments made by services in other agencies.
    Now today, I look forward to receiving an update on the 
CMF, particularly with regard to the readiness of our service 
cyber components to meet the initial and fully operational 
capability goal dates for the teams, as well as the challenges 
and risks associated with meeting those mandatory deadlines.
    We must have the right number of teams, but just as 
importantly we must also have a ready force that is manned, 
trained, and equipped to meet the mission.
    I am particularly pleased that Cyber Command has made 
progress in measuring readiness. Now, since last year strides 
have also been made in establishing a persistent training 
environment, a necessity for preparedness.
    Today I hope to hear more about the steps Cyber Command has 
taken since last year to promote a joint environment with 
common standards such as issuing guiding frameworks for 
doctrine, organization, training, leadership, education, and 
policy, as well as whether or not capability baselines for 
cyber protection teams have been established to ensure 
interoperability and aligned investments.
    With respect to the cyber teams' missions, there is a whole 
host of policy questions we must address as we continue to 
mature our offensive and defensive capabilities and operations.
    I believe it is imperative that we understand lessons 
learned from real world experiences about command and control 
of teams and their various roles in missions, capabilities 
required, authorities used, and new authorities that may be 
required for more effective operations as well as internal-
external oversight.
    So finally, Mr. Chairman and Admiral, I look forward to 
hearing about the status of the implementation, acquisition, 
and personnel management authorities that were granted in the 
fiscal year 2016 NDAA [National Defense Authorization Act].
    So I know it is a lot to cover, Admiral. You have got a lot 
on your plate. I appreciate the extraordinary work that you and 
your team do at Cyber Command or at NSA [National Security 
Agency] are doing to protect our country in cyberspace and 
leverage all the capabilities for the benefit ultimately of our 
warfighter and our national defense.
    So with that, thank you again for testifying here today, 
Admiral Rogers, and thank you for your service to our Nation.
    And Mr. Chairman, thank you for your attention, your focus 
and your support on this issue especially. And I yield back.
    Mr. Wilson. Thank you, Congressman Langevin.
    I am grateful, Admiral Rogers, that your written statement 
has been submitted for the record. So we ask that you summarize 
your comments within the 5-minute rule, which is applicable to 
all of us and being well-maintained by Kevin Gates.
    Admiral Rogers, please begin.

STATEMENT OF ADM MICHAEL S. ROGERS, USN, COMMANDER, U.S. CYBER 
                            COMMAND

    Admiral Rogers. Before my clock starts, I would like to 
start with we should be doing this outside given how beautiful 
the day is. We should be outside.
    With that, Chairman Wilson, Ranking Member Langevin, 
distinguished members of the committee, I am pleased to appear 
before you today to discuss the opportunities and challenges 
facing Cyber Command. And I would like to thank you for 
convening this forum.
    It is an honor to represent the individuals of this fine 
organization, and I am grateful for and humbled by the 
opportunity to lead this impressive team. I am confident you 
would be extremely proud of the men and women of Cyber Command 
if you saw their commitment to mission and hard-earned success 
on a daily basis as I do.
    While my written statement goes into greater detail, I 
would like to briefly highlight the challenges we face in 
today's environment and also some of the initiatives the 
command is pursuing to meet these challenges.
    Since I testified last year, U.S. Cyber Command has seen an 
intensification of cyberspace operations by a range of state 
and non-state actors. We have seen a wide range of malicious 
cyber activities aimed against both government and private 
sector targets.
    At U.S. Cyber Command we focus on foreign actors that pose 
a threat to our national interests through cyberspace. At this 
time nations still present the greatest or gravest threats to 
our Nation's cybersecurity because they alone can commit the 
significant resources needed to sustain sophisticated campaigns 
to penetrate in our best-guarded networks.
    But we continue to also look closely for signs of non-state 
actors making significant improvements in their cyber 
capabilities. The states we watch most closely remain Russia, 
China, Iran, and North Korea. The self-proclaimed Islamic State 
is also a concern, although mainly for their use of cyberspace 
propaganda and recruiting.
    In general, these actors conduct a range of cyber 
activities to support their state's interest. They steal 
intellectual property, citizens' personal information, and they 
have intruded into networks ranging from the Joint Staff's 
unclassified network to networks controlling our Nation's 
critical infrastructure.
    These threat actors are using cyberspace to shape potential 
future operations with a view to limiting our options in the 
event of a crisis.
    Despite this challenging environment, Cyber Command 
continues to make progress as its emphasis shifts to 
operationalizing the command and sustaining its capabilities.
    Over the past year we have continued building the 
capability and capacity of Cyber Command while operating at an 
ever-increased tempo. We continue to make progress in building 
a cyber mission force of the 133 teams that will be built and 
fully operational by 30 September 2018. Today we have 27 teams 
that are fully operational and 68 that have attained the 
initial operating capability landmark.
    And it is also important to note that even as teams that 
are not yet fully operational or have even met our initial 
operational capability, they are contributing to our cyberspace 
efforts with nearly 100 teams or elements of those teams 
conducting cyber operation to include teams that are supporting 
Central Command's ongoing efforts to degrade, dismantle, and 
ultimately defeat ISIL [Islamic State of Iraq and the Levant].
    Last year I noted we had just established the Joint Force 
Headquarters [JFHQ] DOD Information Networks, or DODIN. Today I 
can proudly report that JFHQ-DODIN has made great strides 
towards its goal of leading the day-to-day security and defense 
of the Department's data and networks.
    Also as the DOD expands the Joint Information Environment 
we will have significantly more confidence in the overall 
security and resiliency of our systems. Our operations to 
defend DOD networks and the Nation's critical infrastructure 
proceed in conjunction with a host of Federal, industry, and 
international partners.
    No single agency or department has the authority, 
information, or wisdom to accomplish this mission alone, which 
is why Cyber Command recently updated our understanding with 
both NSA and the Department of Homeland Security in a cyber 
action plan to chart our collaboration.
    Our cyber mission forces continue to operate safely and in 
a manner that respects the civil liberties and privacies of 
American citizens. Additionally, cyber mission teams and joint 
cyber headquarters are regular participants in the annual 
exercises of the combatant commands.
    Cyber Command's only annual exercises, as you have 
highlighted, Cyber Flag and Cyber Guard offer unmatched realism 
as we train with Federal, State, industry, and international 
partners. And while our training is improving we need a 
persistent training environment which the Department is 
continuing to develop to gain necessary operational skills and 
to sustain readiness across the force.
    Cyber Command is also actively contributing to the 
implementation of the new DOD cyber strategy. Senior leaders at 
the command are leading or serving on teams charged with 
implementing the strategies and the initiatives, particularly 
the lines of effort regarding the training and proficiency of 
the cyber mission force and the broader cyber workforce across 
the Department, as well as the integration of cyber effects and 
DOD and cross-agency planning efforts.
    To help with all of this we needed enhanced acquisition and 
manpower authorities, and I thank Congress and the President 
for the authorities granted to Cyber Command in the fiscal year 
2016 National Defense Authorization Act. This represents a 
significant augmentation of our ability to provide capabilities 
to our cyber mission teams, as well as our ability to attract 
and retain a skilled cyber workforce.
    We are now studying how to best implement the Act's 
provisions and laying the groundwork needed to put them into 
effect while in parallel evolving a formalized synchronization 
framework to operationalize and optimize the employment of 
cyber mission forces.
    Let me assure the committee that despite the challenging 
cyber environment we operate in, Cyber Command continues to 
make significant progress, all while simultaneously conducting 
cyber operations against determined adversaries.
    Additionally, the command has a clear path ahead and is 
actively pursuing new initiatives and authorities to best 
position the command to address the challenges and 
opportunities that we will undoubtedly confront.
    With that, thank you again, Mr. Chairman and members of the 
committee for convening this forum and inviting me to speak. 
And I look forward to your questions.
    [The prepared statement of Admiral Rogers can be found in 
the Appendix on page 28.]
    Mr. Wilson. Thank you very much. And we now will proceed, 
and Mr. Gates will maintain the 5-minute rule on behalf of all 
of us as we rotate.
    And Admiral, I want to thank you again. It is a challenging 
environment. There are gruesomely capable adversaries, but I 
just appreciate your service and your colleagues and however we 
can back you up.
    And in regard to that, currently, is the throughput of the 
training pipeline a limiting factor in our ability to get cyber 
mission teams up and running? And if so, do you have any 
suggestions on how to improve that situation?
    Admiral Rogers. So it is probably the single greatest 
limiting factor at the moment. It is a little uneven. It 
impacts more services than others. I would argue at the moment 
it is probably having more impact on the Air Force probably 
than any other services.
    In fact, I just met with all of my service component 
commanders in February. We reviewed where we are in bringing 
the mission force online. That review highlighted that to meet 
initial operational capability for the force we will have 91 
percent of that completed on time. That means 9 percent behind, 
so I have got between now and the end of the year to figure out 
what are we going to do to get that 9 percent back online.
    I have already seen some improvement just in the 6 weeks, 
and I, in fact, have highlighted the results of that review 
with the service chiefs as well as the chairman and the vice 
chairman. So we are working collectively as a Department to 
move forward.
    That review also highlighted that when it comes to full 
operating capability, which is the final milestone, if you 
will, that is all 133 teams and at full capability by 30 
September of 2018, that right now we assess as of February in 
the last review 93 percent of the force will be delivered on 
time. And we have 7 percent that we have got to get back 
online. I have got 2 years to do that.
    I am confident that we are going to be able to do it. And 
as you have said, I would highlight right now training 
throughput probably the single greatest limiting factor.
    Mr. Wilson. And is there anything that we can do to help?
    Admiral Rogers. At the moment I am still working with the 
Air Force in particular. I am not ready to come to you and say 
I need more external help. I want to make sure we have 
exhausted everything that we can do internally.
    Mr. Wilson. Well, if there has ever been strong bipartisan 
support----
    Admiral Rogers. Yes, sir.
    Mr. Wilson [continuing]. It is people who are here today 
who want to back you up.
    Additionally, could you explain the capabilities 
development group and give us highlights of their work?
    Admiral Rogers. So it is a capability that we carved out at 
Cyber Command because one of my observations was, and I have 
said this to the committee before, I believe fiscal year 2016 
is a tipping point for us as an organization where we will go 
from a focus on developing capacity to a focus on actually 
employing the capacity that we have been developing over the 
last 3 years. You see that reflected in the range of both 
defensive and offensive real world operations that we are doing 
right now.
    And so part of our capability to do that is generating very 
specific technical and operational capabilities. And so I felt 
we needed to carve out a segment of the team that was 
partnering with the private sector, the rest of DOD, other 
elements of the government, as well as NSA about how can we 
bring together those capacities to generate actual outcomes in 
capacities and capabilities that we can employ with the force.
    Mr. Wilson. Well, so----
    Admiral Rogers. So we stood that up.
    Mr. Wilson. Well, again, thank you for being innovative. 
How are you addressing new and emerging cybersecurity 
challenges not directly related to the network like 
vulnerabilities to datalinks, weapons systems, industrial 
control systems, or the Internet of Things?
    Admiral Rogers. Right. So just a few challenges there with 
that statement.
    [Laughter.]
    Mr. Wilson. And I am glad Congresswoman Stefanik is here 
because she understood what I asked.
    [Laughter.]
    Admiral Rogers. So what I have tried to do is prioritize. I 
have said industrial control systems and SCADA [Supervisory 
Control and Data Acquisition] probably is the next big area for 
us because we have got to transition from a focus purely on the 
network structure. We have to retain that but we have got to 
move into other areas.
    The other areas that really concern me when I look at the 
problem set are platforms and systems and getting down to 
individual data concentrations across the Department. We have 
started an effort to look at data concentrations, a focus 
industrial control systems and SCADA.
    I would highlight in this regard some great work, for 
example, that the Guard and Reserve are doing. I highlight 
specifically out in Washington State the Army National Guard is 
really doing some interesting work that we are partnering with 
them on. In fact, the Secretary was just out there to take a 
look at that about 2 weeks ago.
    The challenge for now, because I want to set everyone's 
expectations in a realistic way, I mean, what I have told the 
leadership of the Department is I acknowledge that this is what 
we have to do, but we have finite capacity.
    So it is all about I have to prioritize and then we have 
got to figure out who are the other partners that we have who 
could bring additional capacity to help us in this fight. And 
we are in the process of doing that.
    Mr. Wilson. And for the benefit of me, can you identify 
what the Internet of Things means?
    Admiral Rogers. So increasingly what you are finding is in 
the production of almost--increasingly everything we--
refrigerators, automobiles, your iron. I was looking at an 
Internet-connected iron, for example, just a little while ago. 
Increasingly those everyday devices that we take for granted in 
the lives we lead are being connected with each other, designed 
to increase their capability.
    For example, a refrigerator, would you be interested in a 
consumer if your refrigerator was able to tell you what your 
current milk load is in the refrigerator and when are you going 
to need to buy more? Could it do that automatically?
    Could you do upgrades, for example, to systems that you are 
buying now automatically remotely so that you don't have to 
physically take that device into a dealer or the manufacturer, 
they can do it remotely. So increasingly you are finding this 
connectivity proliferating across almost everything that we are 
building and buying these days.
    Mr. Wilson. Well, thank you so much.
    And we now proceed to Congressman Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Yes, it is a bolder world out there, Admiral, for sure. It 
is just scary, challenging, and fascinating all at once.
    Well, with respect to cyber mission force issues, policy, 
authority, and doctrine are paramount to effectively employing 
the cyber mission force. Yet those key ingredients lag behind 
our talent pool and toolsets.
    Now, given that the cyber domain is a relatively new 
operating environment and the strategic implications associated 
with operating in that environment, I understand why policy, 
doctrine, and authorities have taken time to develop.
    Now that said, state and non-state actors continue to be 
aggressive in this environment, and we must move forward. So 
this committee must also understand how they are developing and 
being formalized so that we can assist where needed and 
obviously conduct oversight of activities.
    So my question is how are real world events such as the OPM 
[Office of Personnel Management] and Joint Staff incidents and 
counter-ISIL operations influencing and shaping policy, 
authorities, and doctrine are required to effectively employ 
our force?
    Admiral Rogers. So if you take a look at Cyber Command's 
three mission sets--it is kind of the way I have been doing 
it--so what are the acquisitions and the authorities that we 
require to make sure we are able to execute each of those three 
missions in an effective and efficient manner?
    So the first mission, defense of the DOD networks, I am 
very comfortable that we have all the authorities that we need 
and that I can do what I need to do in a timely manner within 
the Department to defend our networks.
    The second mission is about our ability to generate 
capacity and capability to support the combatant commanders 
from the defensive to the offensive. That is an area where 
quite frankly we are trying to use our work, which again, I am 
not going to discuss in any great detail in an unclassified 
setting, but we are trying to use some of the real world 
insights that you highlighted several of them, ISIL, the last 
major intrusion we dealt with, which is now almost a year ago.
    We are asking for the authorities we need for that and I 
would highlight, boy, we are seeing a massive amount of change 
within the last 6 months, so I am very comfortable that we have 
identified the requirements.
    We have got endorsement for what we need to do and in fact 
I am expecting the last couple of changes we will ask for will 
be signed out by the end of the month.
    The one area that I think is still where we still need more 
collective work, and I need to work on this, too. I don't want 
to make it sound as if I am trying to put anyone else on 
report. Is how do you apply DOD-generated capacity in the cyber 
arena outside the government in the private sector?
    That is probably the area where I would say we still need 
to do more work. I will be honest. It hasn't been my highest 
priority. As I have told you every time generally when we meet 
I always remind everybody, look, there is such a disconnect 
between the requirements of this mission set and where we are 
in capability. It is all about prioritization and making smart 
investments.
    And so I have consciously prioritized along those three 
missions that I just discussed. So it is the next big area that 
we really have got to get into.
    Mr. Langevin. Thank you, Admiral. What does Defense Support 
of Civilian Authorities look like for cyber? And in our current 
framework--is our current framework applicable to the cyber 
domain?
    Admiral Rogers. So that is a part of our previous 
discussion about this fact. I think it is the area where we 
still need the most work, as I know you are aware. We have an 
existing framework, DSCA, Defense Support to Civil Authorities, 
that we currently have in place that talks about how the 
Department will employ its capabilities in support of civil 
authorities.
    That structure has been used for decades from tornado and, 
you know, and hurricane, natural disaster response to a host of 
other capabilities. It does not as currently written explicitly 
address cyber.
    So it is one of the areas that we are collectively stepping 
back and asking ourselves, so how does the DSCA construct apply 
to cyber and what is the most effective and efficient way to 
use it? Because my attitude is, and it is not unique to DSCA, 
let us start where cyber is very similar to the other 
mechanisms we have already put in place. Don't reinvent the 
wheel every time just because it is cyber.
    And so we have a framework right now through DSCA for how 
the Department provides capacity and capability to support 
external civil authority. I think it is an area, as again I 
have said previously though, we have to dig into a little bit 
deeper about how are we going to do that in the cyber arena?
    Mr. Langevin. Okay. Maybe to further drill down on this, 
what are best practices from capability development to 
leadership development are you seeing from the services? And 
what steps are you taking to institutionalize these best 
practices across the services?
    Admiral Rogers. So I am going to combine that question with 
a previous where you asked about, for example, what have you 
learned from previous events like OPM and the Joint Staff 
intrusion? One, and I will just use this as one example, one of 
our takeaways for our effort on the Joint Staff was we needed 
to do a better job of formalizing a common set of tools, 
defensive tool capabilities across all the defensive teams that 
we were creating.
    And so I went to each of the services and said, so let us 
talk about what is the best of breed, what are the best of 
capabilities that we have identified within each service that 
we can port across the entire enterprise? Let us not spend a 
lot of time and money with everybody independently trying to 
develop similar capabilities.
    So in fact the Air Force has a tool that we were very 
impressed with, and I am currently working with the services to 
let us adopt this. This is the standard across the Department. 
We don't need to do four different funding streams here to go 
after the same problems sets.
    We do that with respect to we regularly review training 
standards and training equivalencies and when Army, for 
example, has developed some capabilities in terms of the 
development of training standards where they have come back to 
us and asked that we adopt this, which we have agreed. I have 
talked about, hey, let us use this across the entire 
Department.
    So we try to do it in a very systematic ongoing way because 
I am a big fan of we have got to be more efficient and, you 
know, we have got to be faster. And the best way to do that is 
to look across an entire enterprise, both within the Department 
as well as what we are trying to do outside the Department.
    I won't get into that right now for this question, but I am 
sure you will ask me about that later what we are doing outside 
the Department to try to do those same kinds of things.
    Mr. Langevin. Very good. Thank you, Admiral.
    I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Mr. Langevin.
    We now proceed to Congressman Mo Brooks, of Alabama.
    Mr. Brooks. Admiral Rogers, how much is the Cyber Command 
requesting for this year?
    Admiral Rogers. Slightly over $500 million.
    Mr. Brooks. How much funding did the Cyber Command receive 
for fiscal year 2016, the current year?
    Admiral Rogers. Slightly under $500 million. It was, if my 
memory is right, $488 million, and the 2017 budget request is 
an approximate 9 percent increase over our 2016 authorization.
    Mr. Brooks. What was it in fiscal year 2015?
    Admiral Rogers. I apologize, sir. I don't know it off the 
top of my head.
    Mr. Brooks. Do you recall by any chance for fiscal year 
2014?
    Admiral Rogers. No. I don't. I apologize.
    Mr. Brooks. My recollection and the reason I was asking 
this is try to get better information than just my 
recollection, is that the Cyber Command has had significant 
increases over the last 3 or 4 years. Would that be a fair 
statement to the best as you can recall?
    Admiral Rogers. I would phrase it as our funding has 
increased in a systematic way over the last few years.
    Mr. Brooks. The reason I bring this up, and I am not sure 
if you are familiar with it, but America's financial condition 
has taken a fairly stark turn for the worse.
    Just to iterate some of the numbers, the Congressional 
Budget Office [CBO] is warning us that in about 6 years we are 
going to hit a string of trillion dollar a year deficits until 
such time as whatever really bad can happen happens. In my 
judgment it would be a debilitating insolvency and bankruptcy 
of our country.
    This year the CBO is telling us that our deficit is going 
to be $105 billion worse than last year at $544 billion. In 
terms of our budget, we are right now having some pretty 
intense discussions in Congress about our $1.07 trillion 
budget. Keep in mind that there is a lot more off-budget 
entitlement programs, debt service, and whatnot.
    But if you have $1.07 trillion in budgetary items that you 
actually have control over and have to vote on each year, that 
means that right now we are being asked to borrow about half of 
what we spend, a little bit over 50 percent. Money we don't 
have; can't afford to pay back once we borrow it.
    And all this is coming to a head. What efficiency measures 
can the Cyber Command implement in order to help the taxpayer 
get more bang for the buck for the day when we start seeing 
sizeable cuts across the board in defense and every place else 
simply because we have run out of money and we have run out of 
borrowing capacity?
    Admiral Rogers. So we have been doing that since the day 
U.S. Cyber Command was created. It is one of the reasons, for 
example, why the Department decided to align U.S. Cyber Command 
and NSA very closely. That the idea was don't replicate the 
billions of dollars of investment that the Nation has made in 
generating cyber expertise, for example, at the National 
Security Agency.
    Rather than replicate that scale of investment in U.S. 
Cyber Command how can you align them so Cyber Command can take 
advantage of the investments that have already been made? It 
goes into the way Cyber Command prioritizes. As I constantly 
tell the team, nobody gets a blank check. Nobody gets a blank 
check.
    Mr. Brooks. Well, if we are improving efficiency normally 
that means that you are getting more done for the same or less 
or fewer dollars. Why then the request for an increase in 
spending----
    Admiral Rogers. Because I would argue, sir, look at the 
world around you.
    Mr. Brooks. I understand it is a very dangerous place.
    Admiral Rogers [continuing]. As well. We can't----
    Mr. Brooks. Okay. Let us assume for a moment then----
    Admiral Rogers. If I could just finish the thought? Sorry, 
sir.
    Mr. Brooks. Go ahead.
    Admiral Rogers. And I, please, don't mean to be rude or----
    Mr. Brooks. No, that is okay.
    Admiral Rogers. But just to finish the thought.
    Mr. Brooks. I get interrupted all the time.
    [Laughter.]
    And I apologize for when I interrupt you. Go ahead.
    Admiral Rogers. This is not a mission set that we are going 
to efficiency our way out of. I just don't believe that that is 
achievable. In no way should you take from that comment, so 
Admiral, are you telling me that you don't have a 
responsibility to the citizens of this nation to execute your 
mission in an efficient and effective way? That is not what I 
am saying.
    But my only point is the investments that we are making in 
cyber reflect the nature of the world we are dealing with from 
a threat perspective. Even as we acknowledge that that threat 
picture is occurring in an environment in which resources are 
very tight. I am the first to acknowledge that.
    So what I try to do as a commander, what I try to do as a 
citizen, is make sure that what Cyber Command is doing is 
prioritized, realizing we can't do it all. We try to space 
events out over a reasonable period of time. That is what I try 
to make sure we do because I think you raise a very valid 
concern. I am the first to----
    Mr. Brooks. Okay. I get the argument we have a growing 
threat matrix therefore we need more funding in order to 
properly defend against that greater threat.
    Now, let us assume for the moment that there aren't any 
efficiencies that you can implement that would allow us to have 
the kind of security we want at current funding. Where do you 
suggest the money come from in the defense budget in order to 
help with Cyber Command?
    Admiral Rogers. Fortunately, sir, that is not the role that 
I play.
    Mr. Brooks. I thought I would ask anyway, but I understand.
    Admiral Rogers. [Laughter.]
    Mr. Brooks. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you very much, Congressman Brooks.
    And we now proceed to Congressman Brad Ashford, of 
Nebraska.
    Mr. Ashford. Thank you, Admiral.
    Admiral Rogers. Sir.
    Mr. Ashford. And since I have been here it is just amazing 
how quickly from when we had these discussions when I first met 
you 8, 14 months ago where we are today is----
    Admiral Rogers. Right.
    Mr. Ashford [continuing]. Beyond remarkable. I have a lot 
of questions and I know--well, just training for the moment. Do 
you see the--and you already have these collaborations with 
academia and others to help train and increase training 
capabilities. Do you see an enlargement of that utilizing 
almost a UARC [University Affiliated Research Center] model? As 
for an example, I mean, I know where UARC in Nebraska, there is 
MIT's [Massachusetts Institute of Technology's] UARC.
    Admiral Rogers. Right.
    Mr. Ashford. They have all these various ones. How do you 
see--if the mission is training more and more cyber people, is 
that an avenue to do that?
    Admiral Rogers. I mean----
    Mr. Ashford. Or how do you see that happening?
    Admiral Rogers. I think that is clearly a role. One thing I 
try and remind people when it comes to training I think one of 
the important things is we must ensure that the output we 
generate is standardized across the entire force.
    Mr. Ashford. Right.
    Admiral Rogers. Because if we don't do that, I believe we 
are going to run into challenges when it comes to actually 
employing that force. So one of the things that I have been 
very insistent on, even as we partner across the total force in 
DOD and we look at broader partnerships outside the DOD for the 
mission force that we are creating, is that the team standards, 
the training approaches we take, the certification standards 
that we put in place, we have got to standardize those.
    Now, within those standards what I tell the team is, look, 
I am open to what are the options that are out there? And 
clearly academia and the private sector are part of that 
solution set.
    To date we have tended to use them more on the capability 
side development, if you will, than we have on the training 
side, although we are doing some things on the training side. 
But to be honest, I would say to date it has been more on the 
capability side.
    Mr. Ashford. What I see in my area, companies like, you 
know, First Data, Mutual of Omaha, whatever it is, everybody 
has those kind of corporate presence somewhere in or near their 
districts.
    And then we have STRATCOM [U.S. Strategic Command]. So what 
we have, for example, in Omaha area is STRATCOM, and numbers of 
employees at STRATCOM that are contractors, were in the 
military, whatever, with IT [information technology] 
backgrounds going back and forth either working at STRATCOM or 
to Offutt or coming back into the private sector.
    And there are just a huge number of these people in varying 
degrees of capabilities, some younger, some retired. Maybe you 
have answered this, but how do you organize that? I mean, there 
is a clear force there and a lot of capability. How do you 
bring them and exchange them back and forth? How would that 
work?
    Admiral Rogers. So in fact right now one of the things we 
have started in the last year since our last budget testimony 
to take the idea that you have articulated, which is how do you 
harness the capabilities resonant in the private sector, 
particularly those people----
    Mr. Ashford. Right.
    Admiral Rogers [continuing]. Who either have previous DOD 
experience----
    Mr. Ashford. Right.
    Admiral Rogers [continuing]. And who are now operating in 
the private sector? So we have created out in Silicon Valley 
what we call the United States Cyber Command Point of 
Partnership or Point of Presence.
    We have tied it into the broader DIUx [Defense Innovation 
Unit Experimental] effort, and what we have done is I put one 
active individual out there, but then we have identified a team 
of prior military individuals currently working in Silicon 
Valley in different companies, and we are asking ourselves can 
we use this as an incubator for a model that we can employ 
elsewhere?
    We have done it in Silicon Valley in the last year. I was 
just in Boston at the end of last week. We are going to use 
Boston as our second test case because of the IT capabilities 
there. And then I am looking to see does this scale into 
others, Omaha, for example.
    Mr. Ashford. Yes.
    Admiral Rogers. There are about five that we have 
identified that are possibilities for the future.
    Mr. Ashford. Yes, I mean, I think it is an incredible 
concept and to me it is amazing how quickly you have 
implemented this because just a year ago when you were talking 
about it----
    Admiral Rogers. Yes, sir.
    Mr. Ashford [continuing]. This idea and there is just this 
abundance--and I will let it go, Mr. Chairman because I am 
being redundant a bit here. But is that it is amazing the 
appetite on the private sector that, you know, these major 
companies give us a way to help and then we have got all this 
capability or whatever. But you do have to have standards 
obviously.
    Admiral Rogers. Right.
    Mr. Ashford. And then this whole group of retired or, you 
know, military personnel at STRATCOM, it is just to harness 
that. And you are capturing that. It is very exciting, and I 
appreciate your efforts. I think the incubator idea is great, 
Center of Excellence, whatever you want to call it.
    Thank you, Mr. Chairman.
    Admiral Rogers. If I could, just one quick comment? I was 
out in the valley 2 weeks ago talking to the team. It is one of 
the most energizing--I mean----
    Mr. Ashford. Yes.
    Admiral Rogers [continuing]. Watching these men and women 
talking about how they can take advantage of what they are 
doing every day with company X, Y, or Z in the valley and how 
they want to harness their knowledge----
    Mr. Ashford. Yes.
    Admiral Rogers [continuing]. And their military experience.
    Mr. Ashford. And I see that. We meet with these companies 
all the time in Omaha. The first question they have is how can 
we help----
    Admiral Rogers. What can I do?
    Mr. Ashford [continuing]. The military, too? Thank you, Mr. 
Chairman.
    [Laughter.]
    Mr. Wilson. And then thank you, Congressman Ashford, and it 
is encouraging to see Secretary Carter and the public-private 
cooperation.
    And speaking of good cooperation, Congressman Doug Lamborn 
all the way from Colorado.
    Mr. Lamborn. Yes, thank you, Mr. Chairman. And you came all 
the way from South Carolina.
    [Laughter.]
    Mr. Lamborn. Anyway, Admiral, I am going to build on some 
questions that have already been begun by my colleague, 
Representative Ashford, but he was talking about you were 
responding corporations in the private sector and academia.
    What are ways of just fostering this private-public 
partnership? If there is anything more you could add to that? 
Because I know there are folks in Colorado Springs that are 
very keen on this as well.
    Admiral Rogers. Yes, sir. So a couple things come to mind. 
We have created an exercise series, you heard it in my remarks 
and the chair mentioned, that we call Cyber Guard where once a 
year we pick a problem set. We come up with an exercise 
scenario that crosses the Nation so we can bring together 
entities from across the Nation.
    We bring together private companies, State, local, and 
Federal actors, Cyber Command and the Department of Defense as 
well as commercial infrastructure providers, for example, and 
we outline a problem set.
    We actually create a notional network that reflects if we 
are modeling for example an attack against the power structure. 
We actually in partnership with some of the power companies we 
develop a network simulation that replicates the network 
associated with a large utility.
    We have done this in multiple areas. This exercise scenario 
occurs every June. We ask private companies if you want to 
participate we would love to have you. We are up to about 100 
right now. We just started this in the last 3 years.
    And I can remember the first one we did we had about three. 
It is getting to the point now where I am starting to run into 
a capacity concern where we have got more interest than there 
is room.
    In addition, I am also doing this more on the NSA side 
first, but the other area that I have tried to highlight 
potentially with the private sector is, is there a way to take 
some of our DOD workforce, have it spend some time in the 
private sector, and then come back to us? And is there a way 
also to have the private sector spend some time with us?
    That hasn't been a traditional DOD model. And, boy, it 
certainly hasn't been the traditional Intelligence Community 
model in my other job. But my view is that that is kind of 
among the things that we have got to do for the future. We have 
got to view this as much more of a broader partnership.
    One of my takeaways is, I mean, this is just the ultimate 
team activity. I have never done so much private sector and 
interagency work in 35 years of military service.
    Mr. Lamborn. Well, and academia as well.
    Admiral Rogers. Yes, sir, which is why I was just up at 
Harvard on Thursday when I was up there. I have been to 
Carnegie-Mellon, Berkeley, and Stanford in the last 8 weeks 
trying to talk to the private sector about, hey, what can we 
do? I am actually in Colorado Springs in 30 days. Going to 
spend some day out there working on a couple things.
    Mr. Lamborn. That is wonderful. And I like that idea of 
private-public partnership, collaboration, teamwork and maybe 
with some of our allies. What are your thoughts on working with 
allies, you know, Israel or some of the NATO [North Atlantic 
Treaty Organization] allies?
    Admiral Rogers. Right. So I won't get into the particulars, 
but in fact today U.S. Cyber Command is hosting a deterrence 
workshop with one of our allies that you just mentioned. I am 
not going to say which one.
    In addition we are doing partnerships and capabilities 
development probably with, you know, five or so key nations 
right now, foreign nations. In addition, we are also doing 
things in a much broader front talking about cyber theory, 
cyber defense across the NATO alliance, and literally with 
nations around the world. It is one of the reasons why I spent 
some time on the road, you know, internationally.
    Mr. Lamborn. Lastly, with the limited time I have, let me 
shift gears. Everyone knows the Guard and Reserve make a 
wonderful component of this effort. You can do cyber from 
anywhere. And we find Guard and Reserve all throughout the 
country.
    You can do it anytime. And of course their schedules are, 
you know, 24/7 as well. Given the wealth of knowledge, 
experience, and certifications in the Guard and Reserve would 
it be prudent to consider a streamlined accessions process to 
get these specialists onto the job quicker?
    Admiral Rogers. I don't intellectually disagree. The only 
comment I would make is in my discussions with the Guard and 
the Reserve segment when I have asked so do you have issues 
that I can help with in terms of your ability to assess and 
bring into the force, into the Reserve and Guard Components, 
you know, the kind of skill sets and the people we need? Is 
that an issue for you?
    To date the answer I have heard is, no, quite frankly, we 
have more people trying to get in than we really have space for 
in some ways. I have not heard the leadership come back to me 
and say no, this is really something that is a major issue. I 
am not trying to pretend it is not. I am just trying to 
highlight it hasn't when I have asked, bubble it to my level.
    Each service has taken a slightly different approach for 
how it integrates Guard and Reserves into the broader 
structure. Some services are looking at Guard and Reserve as a 
cadre to augment the active side.
    Other services, if you look at Army, for example, they are 
doing wholesale investments in building cyber capacity in the 
Guard and Reserve over and above what the cyber mission force 
needs. And Air Force is actually using Guard and Reserve as 
part of their cyber mission force build.
    Mr. Lamborn. Yes. That is what General Hyten was telling 
us----
    Admiral Rogers. Yes, sir.
    Mr. Lamborn [continuing]. Some of us at the space power 
caucus the other morning.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you very much, Congressman Lamborn.
    We now proceed to Congressman Jim Cooper of Tennessee.
    Mr. Cooper. I thank you, Mr. Chairman. Admiral, when a 
Congressman like Mr. Brooks asks you how we could get savings 
from the DOD budget, you might want to remind the members of 
the committee that we have banned the Pentagon from even 
thinking about any possible BRAC [Base Realignment and Closure] 
savings.
    It would be illegal even though the Air Force I think has 
testified that 25 percent of their capacity is redundant 
surplus. So that is the easy savings that this committee has 
willfully ignored.
    I am a little worried that I think on the Secretary's trip 
2 weeks ago to Joint Base McChord, he met some very interesting 
people there and----
    Admiral Rogers. Right.
    Mr. Cooper [continuing]. All the message he received was 
that it was easier to hire cyber experts before we 
bureaucratized everything. Now there is a requirement that you 
take a 6- to 9-month course and some of these folks we are 
trying to recruit could actually teach the course.
    And they are not going to sit through something like that 
just to get their stripes when they already have all the skills 
that we are seeking. So I hope that as we seek out these folks 
we don't discourage them from coming.
    Admiral Rogers. Can I make a comment on that?
    Mr. Cooper. Sure.
    Admiral Rogers. We have created a capability in the regular 
force that we call our equivalency board, because my concern 
was, look, we don't want to do a cookie cutter approach, one 
size fits all, in which we have a formalized process that we 
give equivalent credit to people based on experience and not 
just, hey, did you go to military course X, Y, or Z?
    So far I think we have approved almost 500 individuals 
where we have just granted credit for equivalent experience.
    We are in the beginnings of an initial discussion with the 
Guard and the Reserve about couldn't we use the same thought 
process on the Guard and Reserve side so we give people 
equivalent credit, if you will, for real life experience so we 
can be faster and more efficient?
    Mr. Cooper. I also hope the Guard and Reserve will get up 
to speed on the locational advantages. I was under the 
impression from a briefing yesterday that one of the top Guard 
efforts in cyber will be located in Arkansas. And I don't 
believe you mentioned that on the list of your visits.
    Admiral Rogers. I didn't, but I am aware of it.
    Mr. Cooper. And I would think, and I have got nothing 
against Arkansas, but it would not be as target-rich an 
environment as some other parts of the country. But it is we 
have got to make sure we are doing the right thing here.
    Another question is this. If you were in command and it 
turned out in retrospect that during the duration of your 
command it had been hacked, and yet you were in charge of that 
throughout your tenure, you are retired now, what consequence 
should there be?
    Admiral Rogers. I don't like speaking in theoreticals, sir. 
What I generally tell people is, look, we all should be held 
accountable for our actions. I am the first to acknowledge as a 
commander I have accountability for the missions. And I don't 
duck that for one minute. I would rather not get into 
hypotheticals.
    Mr. Cooper. Well, unfortunately, it may not be a 
hypothetical. I am not speaking of your case, but in the case 
of other folks.
    Admiral Rogers. Well, who knows, sir? It could be at some 
point in the future----
    Mr. Cooper. Well----
    Admiral Rogers [continuing]. Rogers isn't at the job 
anymore and I am the first to acknowledge that.
    Mr. Cooper. Well, this is an increasing challenge because 
it is hard to know necessarily when you have been hacked or not 
and what the consequences of that----
    Admiral Rogers. Yes, sir.
    Mr. Cooper [continuing]. Are. So it is a very ambiguous 
area. Is it currently against the Uniform Code of Military 
Justice to use improper computer hygiene? Like, it is my 
impression that you can be a commanding officer and lose your 
command if you commit adultery, but you can pollute the SIPRNET 
[Secure Internet Protocol Router Network] and it is really not 
a legal infraction.
    Admiral Rogers. I will say we are having an ongoing 
discussion about we have a very, as you have highlighted, we 
have got a very formalized and long practice mechanisms of 
accountability for performance in a lot of other areas.
    How do we ensure that we do that same approach in cyber, 
because one of the concerns that I have, and I have mentioned 
this to the committee before, is you can have the greatest 
defensive structure in the world but the individual actions of 
every individual user that we have can make our ability to 
actually take full advantage of those investments and those 
capabilities very difficult.
    And you saw that in the Joint Staff intrusion, for example, 
where ultimately we were able to defeat the attempt in almost 
60 other networks simultaneously except in this one particular 
network. The final defense is the user. In this case we had 
users who clicked on a link that I said what? What would lead 
you to do this? You know, read this. It doesn't make any sense.
    And as a result of this, we are spending time, we are 
spending money. We have got mission operational impact here. We 
can't afford to have this sort of thing. It is one of the 
reasons why the previous vice chairman in particular felt very 
strongly we have got to create this culture of accountability.
    So we have created an initiative. We call it DC3I [Defense 
Cybersecurity Culture and Compliance Initiative] and U.S. Cyber 
Command is the lead for the Department, about what are the 
kinds of steps we have to do to create that culture of 
accountability.
    Mr. Cooper. Thank you. I see my time has expired.
    Mr. Wilson. Thank you, Congressman Cooper.
    And now I will proceed to Congresswoman Elise Stefanik, of 
New York.
    Ms. Stefanik. Thank you, Chairman Wilson and thank you 
Chairman for the great question on the Internet of Things where 
we are facing unique challenges as mobile devices and household 
devices become more interconnected. That increases the 
likelihood of cyber vulnerabilities. So it is a great question 
and I want to continue working with you on that issue.
    Admiral Rogers, thank you for being here today, and thank 
you for your service to our country. Through the posture 
hearings from the past few months, we have heard about the 
evolving strategic threats in the cyber realm from a resurgent 
Russia, destabilizing threats from both state and non-state 
actors in the Middle East, and overt provocative cyber activity 
coming out of the Pacific region.
    So today I want to focus my questions on the evolutions of 
these threats and how we maintain the edge on the 21st century 
battlefield. How confident are you moving forward that our 
cyber capabilities are robust enough to face the threats of the 
future on these multiple fronts? And then can you speak 
specifically to your concerns about adversarial cyber 
capabilities and your assessment of our own cyber capabilities 
moving forward?
    Admiral Rogers. So I feel comfortable with our level of 
capability. I have yet to run into a threat scenario that we 
didn't have the expertise to deal with. What concerns me is 
capacity, how much of it do you have?
    And as the threats proliferate, our ability to deal with 
high-end simultaneous complicated threats. That is probably the 
biggest limiting factor for right now, which is why generating 
the mission force is so critical. That gives us that capacity 
as well as the tools and the other investments we are asking 
the committee and the Nation to support to get us to that 
capacity.
    In terms of evolution of the threat as I look into the 
future I am going to riff off for just a little and if it 
doesn't get to your question, ma'am, you please just tell me.
    As I look at the evolution of the threat what concerns me 
is you are seeing the last 18 months data in massive quantities 
now in and of itself has a value that previously we would have 
said to ourselves, look, this dataset is so large nobody can 
really do anything with it.
    OPM, Anthem, those are good examples to us of data now is a 
commodity that has a value for a variety of purposes, whether 
that be counterintelligence, whether it be social engineering 
and helping to refine cyber activity, you will see increased 
attacks against big data concentrations is a trend of the 
future.
    You are watching nation-states right now create 
relationships in many cases with a much broader range of actors 
out there than we traditionally had seen. I think this is in no 
small part an attempt to obscure what the real originator and 
director of the activity is.
    It potentially or theoretically makes it more difficult for 
us to go to country X and say, hey, we see this activity going 
on. You are doing it. This is unacceptable to us.
    And their ability to say, it is not us. It is a criminal 
group. It is some other actor. You have criminals in the United 
States, don't you? You don't control all that. We don't control 
all that.
    So you are watching nation-states create these 
partnerships, I think in no small part to try to obscure our 
ability to highlight that their activity. Criminal activity 
continues to get more sophisticated. You are going to see a lot 
more ransomware. You watch over the next year you will see a 
lot more ransomware activity.
    Ms. Stefanik. So based on the fiscal year 2017 requested 
increase in funding for cyber capabilities, development, and 
operational support that you noted before, where do you feel 
the cyber community is assuming risk for readiness?
    Admiral Rogers. So we are still taking more risk than I 
would like. You look at individual platforms and weapons 
systems. Just because of the scale of the investments, because 
literally you are trying to overcome decades of investment in 
which redundancy, reliability, and defensibility against a 
cyber threat were just not core design characteristics.
    And just as you highlighted in your comment about the 
Internet of Things, this increased connectivity and eternal 
connections that we developed in our system, not for bad 
reasons. I am not trying to criticize that for one minute.
    If you are interested in designing--as a naval officer if 
you are in there interested in designing hull forms for future 
service combatants, you are interested in understanding how 
hull forms today are responding to different sea states around 
the world.
    So you put telemetry and measurement devices and then now 
you are measuring it remotely. That also represents a potential 
threat vector now for someone to gain access.
    So we are literally trying to overcome decades of 
investment in a very different threat world. So it is all about 
prioritization, and it is going to take us some measure of time 
to overcome or change that investment strategy.
    So that would probably be the biggest area in some ways 
where you never have all you want. And particularly in this 
mission we are only 6 years old. In May, we will celebrate our 
sixth birthday, so, you know, we are new to this.
    Ms. Stefanik. Well, as you need those resources it is 
important for you to continue telling us on this committee to 
make sure that we are able to maintain the capabilities for our 
cyber capabilities moving forward. So thank you so much for the 
thoughtful answer.
    Mr. Wilson. And thank you, Congresswoman Stefanik.
    We now proceed to Congressman Joaquin Castro, of Texas.
    Mr. Castro. Thank you, Chairman, and thank you, Admiral 
for----
    Admiral Rogers. Sir.
    Mr. Castro [continuing]. Your testimony here today. I 
represent San Antonio, Texas, of course a very big military 
town, and my district includes Lackland Air Force Base, very 
proudly home of the 24th Air Force.
    And so I want to ask a question about the cyber operators. 
Have you encountered any issues within the security clearance 
process in recruiting cyber operators?
    Admiral Rogers. I won't say there is none. Nothing that has 
led me to believe we have got a systematic problem that 
requires fundamental change. We always are looking to see can 
we accelerate or make this faster.
    If you have been doing this long enough it is--I just had a 
discussion with a brand new hire about a month ago who 
expressed frustration to me. And I said I know. We are working 
our way through it. I would only tell you that we will make you 
happy, young man.
    Boy, compared to where we were 3 years ago, 5 years ago we 
are in a much better place. So it is something we continue to 
look at, but there is no easy answer here because it is all 
about that balance.
    Mr. Castro. Right.
    Admiral Rogers. You are concerned about threat. On the 
other hand you realize, look, you can't execute the mission 
without good people. And you can't get good people in to do the 
work unless you get them through your system.
    Mr. Castro. Sure. And you mentioned, you know, the speed of 
processing. Do you see a merit in fast-tracking for certain 
critical positions?
    Admiral Rogers. There might be for some. There are a 
handful of--if you look across the cyber mission force there is 
probably I would argue a handful of skill sets where it is 
either very difficult for us to replicate it in a military 
environment, so we look to the civilian sector.
    Or the skill, the level of knowledge and experience really 
narrows down the population that is qualified to do the job, so 
to speak. Those might be a couple things worth looking at.
    Mr. Castro. Sure. And we would love to hear your 
suggestions, you know, at the appropriate time if you do come 
up with them.
    Admiral Rogers. Yes, sir.
    Mr. Castro. So thank you. I yield back, Chairman.
    Admiral Rogers. And if I could, I am actually going to be 
in San Antonio with the 24th and the 25th Air Force----
    Mr. Castro. All right.
    Admiral Rogers [continuing]. In about 10 days, so----
    Mr. Castro. Well, welcome.
    Admiral Rogers. Sir.
    Mr. Wilson. And thank you very much, Congressman Castro, 
and Admiral, thank you for being here today. We had a really 
good turnout from members of the subcommittee because what you 
are doing is so important for our country and what your 
colleagues are doing. And however we can be supportive and it 
is obviously, remarkably, incredibly bipartisan.
    Admiral Rogers. Sir. Thank you.
    Mr. Wilson. We are now adjourned.
    [Whereupon, at 2:59 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 16, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2016

=======================================================================

 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. What are the most common and consequential types of 
cyber incidents that affect public safety or critical infrastructure 
security in the United States? Do the Department of Defense and 
National Guard assist with response to domestic cyber incidents that 
threaten public safety or critical infrastructure security, or do you 
expect that they will need to do so in the future? If so, how are they 
preparing for these incidents?
    Admiral Rogers. Consequential cyber incidents affecting the public 
safety or critical infrastructure security in the United States include 
attacks which degrade or disrupt major functions of the 16 critical 
infrastructure sectors identified in Presidential Policy Directive 21 
(PPD-21), Critical Infrastructure Security Resilience. According to 
PPD-21, each sector ``. . . provides the essential services that 
underpin American society.'' Disruption of any of these services for a 
significant period of time would have an impact on public safety. 
Potential cyber incidents include attacks which achieve unauthorized 
access, destroy data or system function, or result in release of 
sensitive information.
    The Department of Homeland Security (DHS) is the lead for domestic 
incident response to cyber incidents. If unable to address a cyber 
incident, the DHS may submit a Defense Support to Civil Authority 
(DSCA) request which potentially could task resources through the DOD, 
USSTRATCOM, and ultimately USCYBERCOM. Currently this scenario is 
viewed as a last resort situation.
    The National Guard assigned cyber forces are available to support 
any federal response in Title 10 status or State response in either 
State Active Duty (SAD) or when authorized in Title 32 status. Ensuring 
the National Guard cyber forces are properly manned, trained, and 
equipped for any particular mission set, is key. The DOD, National 
Guard, and DHS have trained to respond to cyber incidences, as part of 
a Whole-of-Nation approach, through exercises like CYBER GUARD.
    Mr. Wilson. To what extent has U.S. Cyber Command collected 
measures of performance or measures of effectiveness to demonstrate 
that the dual-hatted position with the National Security Agency is the 
most effective and most efficient approach to both agencies missions?
    Admiral Rogers. USCYBERCOM has focused its assessment efforts on 
evaluating its growing resource requirements, increasing support to the 
Geographic Combatant Commanders' plans, named cyber operations, and the 
Department's requirements for information network security. Our 
assessment program reviews and analyzes progress towards achieving 
campaign plans objectives but has not studied alternative command 
structures. To date, we have not collected measures of performance or 
effectiveness to demonstrate that the dual-hat approach is the most 
effective and efficient approach. USCYBERCOM is reliant on the National 
Security Agency to accomplish large portions of our missions, which 
requires close and continual technical coordination.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Given the rapidly growing demand for CMF training, do 
you think DOD needs to begin to look at other ways to deliver training, 
including through greater influencing courses offered at university, 
and by developing commercial training opportunities?
    Admiral Rogers. DOD continues to examine the most effective means 
to deliver joint training for the Cyber Mission Force (CMF). CMF 
training provided by the Services and the National Security Agency 
(NSA) Cryptologic Training System (CTS) rely on both government and 
contractor provided training courses. Currently 60% of the NSA offered 
courses that are on the CMF Training Pipeline are instructed by 
commercial vendors. We are working with NSA to continue to leverage 
their robust academic outreach programs to connect with government 
(e.g., National Defense University, Defense Cyberspace Investigation 
Training Academy, service academies, war colleges) and universities/
colleges.
    Mr. Lamborn. What standards do CPT personnel have to meet in order 
for them to be fully qualified cyber defenders? Please provide a copy 
of the standards to the Committee.
    Admiral Rogers. In accordance with the Cyber Mission Force (CMF) 
Training Model, Cyber Protection Team (CPT) personnel must meet the 
standards for individual proficiency contained in the USCYBERCOM Joint 
Cyberspace Training and Certification Standards (JCT&CS) and team/force 
proficiency in the Training and Readiness (T&R) Manual in order for 
them to be fully qualified cyber defenders. The JCT&CS provide the 
specific knowledge, skill and ability standards for each CMF work role 
at the apprentice, intermediate and expert levels. The T&R Manual 
provides the development, execution, and assessment of collective 
(squad, team, headquarters) training to support force development and 
readiness.
    The CMF Training Model is a phased training process based on 
mission-specific requirements and tasks. Personnel assigned to a CPT 
begin with a mix of foundation training or Service equivalent training, 
then move to specialized technical/tradecraft instruction, and 
localized individual technical joint qualification record (JQR) and on 
the job training (OJT), coupled with an intensive staff and collective 
training and exercise program to achieve mission readiness. Collective 
training activities are an extension of individual proficiency to team 
and unit proficiency. An example of a collective training event for CPT 
Teams is the CYBER GUARD exercise, which is focused on exercising a 
whole of nation defense of U.S. critical infrastructure from 
destructive cyber attack.
    When a CPT member has met their JCT&CS work role specific 
individual tasks, JQR/OJT, and participated in team collective training 
event assessed using the T&R manual, they are then considered a fully 
qualified cyber defender.
    Mr. Lamborn. Who is responsible for training CPTs, and do you 
believe the CPTs have enough training to effectively protect our 
networks against advanced cyber adversaries like Russia and China? How 
do you plan to get the CPTs capable of defending against such threats? 
Are the Services doing their part to train the CPTs?
    Admiral Rogers. The military Services and U.S. Cyber Command, 
working with the National Security Agency (NSA), are responsible for 
training CPTs. No, we do not yet believe CPTs have enough training to 
effectively protect our networks against advanced cyber adversaries. 
However, we are making significant progress in maturing and expanding 
training to achieve required levels of operational readiness for CPTs.
    We have a strong program in place for Cyber Mission Force (CMF) 
individual training and qualification to joint standards for personnel 
assigned to CPTs. Personnel begin with Service-provided training in a 
primary specialty, and then once assigned to a CPT each person 
completes work role-specific training and qualification to rigorous 
joint standards under a system managed by U.S. Cyber Command, working 
with the National Security Agency's Cryptologic Training System. This 
individual training process provides the baseline for individual 
proficiency. We continue to mature the individual training process as 
we grow the CMF and the Services are fully involved in that process and 
doing their part. The Services are expanding Service-provided training 
to deliver outcomes that meet joint standards for the CPTs.
    We do not yet have sufficient collective training capacity for CPTs 
because we still lack a Persistent Training Environment (PTE) for DOD 
cyberspace forces. CPTs are not groups of trained technicians, but 
maneuver forces that must operate as a disciplined fighting force to 
perform assigned missions against determined adversaries. That requires 
CPTs conduct collective training in a closed network environment in 
realistic operational scenarios against an opposing force simulating 
advanced cyber adversaries. That enables our forces to train as they 
fight. We currently use limited, existing DOD capabilities to conduct 
periodic collective training and exercises, such as CYBER FLAG and 
CYBER GUARD. However, we don't have sufficient training capability or 
capacity to train continuously to achieve or sustain the levels of 
required readiness for all CPTs. The PTE for cyberspace forces that is 
included in the President's FY17 Budget Request is essential to 
providing the capability needed to train CPTs, along with the entire 
Department of Defense cyberspace workforce. The PTE will enable us to 
train CPTs to effectively protect our networks against advanced 
adversaries.
    Beyond training, we are preparing CPTs to address threats by 
leveraging expertise from across the government, including NSA and the 
Services' network defenders that have experience in this area. We are 
building capability to better posture our teams against high level 
malicious cyber actors through the utilization of incident response 
teams, increased use of intelligence to understand the threat, 
identification of unique network technology in specialized systems 
(Industrial Control Systems/Supervisory Control and Data Acquisition, 
etc.), and by building a more detailed understanding of critical 
infrastructure and key resource vulnerabilities. Finally, we are 
strengthening partnerships within government, with allies and the 
private sector to train and operate together. We believe that these 
initiatives, along with training, will ensure the CPTs achieve and 
sustain readiness to defend against such threats.
    Mr. Lamborn. On a yearly basis, how many hours of live, on-network 
training with a realistic cyber-adversary do CPT personnel receive in 
order to ensure they can hone their defensive cyber skills? Do you 
think this training is sufficient, and if not, how do you plan to 
increase the amount of realistic training the CPT personnel receive?
    Admiral Rogers. At this time, it is difficult to quantify the exact 
number of live, on-network hours our Cyber Protection Team (CPT) 
personnel receive on an annual basis as we continue to mature CPT 
training/methodologies and work through certifying teams currently in 
the build phase. USCYBERCOM hosts two major cyber exercises (CYBER 
GUARD and CYBER FLAG) and numerous team-level exercises (CYBER KNIGHT) 
each year, which offer a certain degree of realism against an advanced 
cyber-adversary. In CYBER GUARD and CYBER FLAG, a CPT receives a 
minimum of 60 hours in each exercise of live, on-network training 
against a realistic cyber-adversary. Combatant Command Tier 1 level 
exercises provide additional opportunities for training the Cyber 
Mission Force (CMF) via red teams emulating advanced adversary tactics, 
techniques, and procedures (TTPs). The intelligence community works in 
coordination with the red teams to ensure realistic cyber adversary 
TTPs are utilized and that defenders are exposed to current and future 
cyber adversary TTPs to ensure quality training is continuously 
achieved. The realism these exercises offers is limited, in part 
because the teams operate on simulated networks that do not come close 
to approximating the scale and complexity of the Internet.
    USCYBERCOM recognizes there is currently a capacity issue in terms 
of realistic training opportunities for our CPT personnel, which is why 
a Persistent Training Environment (PTE) and all of its elements are 
critical to the training and readiness of the CMF. The PTE, a 
geographically distributed, federated system of interconnected 
capabilities (not just a coalition of cyber training ranges), provides 
an integrated common training capability to deliver individual and 
collective training outcomes for DOD cyberspace forces to generate and 
sustain force readiness across the full spectrum of operations from the 
tactical to strategic level of conflict. The DOD cyber forces require a 
Joint PTE with sufficient capacity to ensure geographically dispersed 
teams across the total force are fully prepared to conduct current 
cyberspace operations and future scenarios involving cyberspace 
operations consistent with approved plans (e.g., CONPLANs, OPLANs, 
etc.).
    Mr. Lamborn. As the Department moves toward JIE and a government-
owned, contractor-operated model for its core infrastructure, what is 
the plan for the thousands of civil service IT professionals currently 
maintaining this infrastructure? Will they be retrained for assignment 
to a CPT or CMF, and do current legal authorities allow for civilian 
participation in these Title 10 activities?
    Admiral Rogers. A tenant of JIE is to align DOD Component IT 
capabilities by bringing them together under an enterprise services 
construct to leverage economies of scale in terms of IT resources, 
money and manpower. Traditionally, DOD Components are responsible for 
deploying capabilities, as well as manning, training and equipping 
their IT workforces to meet mission requirements. Workforce 
efficiencies gained as a result of JIE would be available for DOD 
Components to repurpose. There may be a need for retraining of duties, 
re-scoping of responsibilities or leveraging existing skills with no 
additional training required.
    The Department is in the process of developing and implementing 
initiatives which could assist the DOD components to identify options 
for reassigning personnel. The DOD Cyberspace Workforce Framework 
(DCWF) provides descriptions for 54 cyber work roles and was developed 
from the National Initiative for Cybersecurity Education, Cybersecurity 
Workforce Framework, and the USCYBERCOM Joint Cyberspace Training 
Certification Standards (JCT&CS). Additionally, the DCWF contains a 
cross-functional analysis that identifies the knowledge, skill and 
ability deviations between each role. Furthermore, CMF training will be 
more widely available as the Services continue to advance on the 
training transition plan. The availability of additional training such 
as CMF training will assist with personnel transitioning from 
traditional IT and network operations roles into cybersecurity or 
cyberspace effects roles. The CMF would benefit from a workforce 
trained in network engineering, incident response, and other cyber 
disciplines. IT professionals' careers may be re-scoped to support 
tasks within the Defend the Nation (DTN), Offensive Cyberspace 
Operations (OCO) and Defensive Cyberspace Operations (DCO) missions. 
DOD civil servants currently serve across the CMF and can, consistent 
with law and policy, participate in the CMF's Title 10 activities.
    Additionally, DOD Components may leverage their civil service IT 
professionals to support emerging IT initiatives, including protection 
of Industrial Control Systems/Supervisory Control and Data Acquisition 
(ICS/SCADA) and enabling mobility capabilities. Portions of a DOD 
Components' workforce can be retrained to perform Defensive Cyberspace 
Operations--Internal Defensive Measures (DCO-IDM) actions such as 
Cybersecurity Service Provider duties.
    Some examples of USCYBERCOM's vision for possible manpower 
realignment:
    --Retrain and Repurpose within the Combatant Commands, Services and 
Agencies: Support to emerging IT initiatives, including protection of 
Industrial Control Systems/Supervisory Control and Data Acquisition 
(ICS/SCADA) and enabling mobility capabilities may require a degree of 
retraining. Portions of a Component's workforce can be retrained to 
perform defensive cyberspace actions such as Cybersecurity Service 
Provider duties and augmenting cybersecurity capability readiness.
    --Retrain and Repurpose of the Cyber Mission Force (CMF): The CMF 
could benefit from a workforce trained in network engineering, incident 
response, and other cyber disciplines. Careers may be re-scoped to 
support tasks within the Defend the Nation (DTN), Offensive Cyberspace 
Operations (OCO) and Defensive Cyberspace Operations (DCO) missions.
    --Migrate to an IT-focused Combat Support Agency (CSA): The Defense 
Information Systems Agency (DISA) and the National Security Agency 
(NSA) have large roles in architecting, engineering and maintaining JIE 
Enterprise Services. Portions of the workforce formerly operating IT 
capabilities on behalf of a DOD Component could be leveraged by CSAs to 
continue supporting the global DOD Cyber Operations Mission.
    --Reduction in Force: Personnel who decline to undertake one of the 
above options could be reassigned into other mission areas, or reduced 
through attrition. It is at the discretion of the individual DOD 
Component to determine how to best undertake this option.
    The move toward JIE provides an opportunity for the existing IT 
workforce to retrain, re-scope and realign high-demand low-density 
positions with emerging mission requirements.

                                  [all]
</pre></body></html>
